U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Cornelius R. Caple v. United States of America,
S.Ct. No. 20-8047

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 30,
2021, and placed on the docket on May 17, 2021. The government’s response is due on June 16,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 16, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8047
CAPLE, CORNELIUS R.
USA

M. CAROLINE MCCRAE
FEDERAL PUBLIC DEFENDER
450 S. AUSTRALIAN AVE.
STE. 500
WEST PALM BEACH, FL 33401
561-833-6288

